                          Federal Emergency Management Agency
                                      Office of Inspector General – Audits Division
                                              Western District Audit Branch
                                               1111 Broadway, Suite 1200
                                             Oakland, California 94607-4052



                                                 February 4, 2003


MEMORANDUM FOR:                    Jeff Griffin
                                   Regional Director, Region IX




FROM:                              Robert J. Lastrico
                                   Western District Audit Manager

SUBJECT:                           Alameda County Flood Control & Water Control District Zone 7
                                   Pleasanton, California
                                   Public Assistance Identification Number 001-91017
                                   FEMA Disaster Number 1046-DR-CA
                                   Audit Report Number W-11-03

The Office of Inspector General audited public assistance funds awarded to Alameda County
Flood Control & Water Control District, Zone 7, Pleasanton, California (District). The objective
of the audit was to determine whether the District expended and accounted for FEMA funds
according to Federal regulations and FEMA guidelines.

The District received a public assistance award of $1.5 million from the California Office of
Emergency Services (OES), a FEMA grantee, for debris removal and emergency and permanent
repairs to structures damaged as a result of flooding that occurred from February 13, 1995, to
April 19, 1995. The award provided for 75 percent FEMA funding for 11 large projects and
30 small projects.1 The audit covered the period of February 13, 1995, to September 22, 1999,
and included a review of the 11 large projects. The attached exhibit provides a schedule of the
audited projects.

We performed the audit under the authority of the Inspector General Act of 1978, as amended,
and according to generally accepted government auditing standards. The audit included a review
of FEMA, OES and District records, a judgmental sample of project expenditures, and other
auditing procedures we considered necessary under the circumstances.



1
  According to Federal regulations in effect at the time of the disasters, a large project was defined as a project
costing $43,600 or more and a small project was defined as one costing less than $43,600.
                                      RESULTS OF AUDIT

According to the FEMA Region IX records we reviewed, the Region performed an adequate
evaluation of the District’s disaster related needs and appeals for more funds and limited the
award to funds needed for paying disaster related damage. However, the District’s claim
included $419,329 in unsupported project costs (FEMA’s share - $314,497). Specifically, the
District applied cost underruns on eight large projects to cover overruns in other large and small
projects. The attached exhibit provides a schedule of the eight projects and related questioned
costs.

In September 1999, the District certified that the projects were complete and claimed the
estimated project costs as the actual cost incurred. There was no indication in documents
submitted to FEMA that the District incurred any cost overruns or underruns on its projects.
Therefore, the District did not request additional funding on those projects that exceeded project
estimates. District officials explained that underruns occurred because FEMA was delayed in
providing needed public assistance funds due to appeals, thus forcing the District to make repairs
using less costly construction methods. They stated the excess funds were used to meet cost
overruns in other large and small projects while keeping the overall project costs within FEMA
estimated amounts.

According to Federal regulation 44 CFR 206.204(e), subgrantees must submit a written request
to FEMA for additional Federal assistance for cost overruns experienced in any single large
project or all small projects in aggregate. This regulation also specifies that for individual large
projects, the request should be made as soon as the overrun is estimated or discovered, and for
small projects, within 60 days following the completion of all small projects. In addition,
according to Federal regulation 44 CFR 13.20, claimed amounts must be supported by source
documents.

Since the District did not receive approval for the additional costs incurred under various other
projects, and the excess costs claimed under the eight projects were not supported with source
documents applicable to those projects, we question $419,329.

                                     RECOMMENDATION

We recommend that the Regional Director, in coordination with OES, disallow $419,329 of
questionable costs.

              DISCUSION WITH MANAGEMENT AND AUDIT FOLLOW-UP

We discussed the results of our audit with the District and OES officials on December 13, 2002.
District officials agreed with the finding. We also discussed the results of our audit with Region
IX officials on December 16, 2002.


                                                 2
Pursuant to FEMA Instruction 1270.1, please advise this office by April 8, 2003 of actions taken
to implement our recommendation. Should you have any questions concerning this report,
please contact me at (510) 627-7011. Key contributors to this assignment were Humberto
Melara and Sabinus Njoku.




                                               3
                                                                   Exhibit


                 Schedule of Audited Projects
Alameda County and Flood Control & Water Control District Zone 7
            FEMA Disaster Number 1046-DR-CA



           Amount Awarded           Actual           Questioned
Project     and Claimed             Costs              Cost
20035       $ 110,318              $ 23,970           $ 86,348
20042           79,966                2,967             76,999
20033           59,954                4,387             55,567
20030           56,837                4,192             52,645
20028           56,280                4,169             52,111
20031           53,806                4,216             49,590
71419           56,707               14,012             42,695
20016           46,417               43,043               3,374
20010          208,108              208,108                   0
20018           61,095               61,095                   0
20040          224,763              224,763                   0
 Total      $1,014,251             $594,922           $419,329




                               4
